1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
703.243.9423
www.consovoymccarthy.com

May 19, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

Students for Fair Admissions, Inc. v. President & Fellows of Harvard College, No. 20-1199

Dear Mr. Harris:
I represent Petitioner, Students for Fair Admissions, Inc. (SFFA), in this case. Per
this Court’s Rule 15.5, SFFA waives the 14-day waiting period and requests that its petition
be set for distribution on May 25 for consideration at the June 10 conference. SFFA plans
to submit its reply no later than May 25 so that the Court will have full briefing before its
conference.
Sincerely,
/s/ William S. Consovoy

cc:

All counsel of record

